<html>
<title> - ZIMBABWE: OPPORTUNITIES FOR A NEW WAY FORWARD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   ZIMBABWE: OPPORTUNITIES FOR A NEW
                              WAY FORWARD

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 7, 2009

                               __________

                           Serial No. 111-57

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
49-549                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California<greek-l>As 
    of 3/18/09 deg.
               Noelle Lusane, Subcommittee Staff Director
          Sheri Rickert, Republican Professional Staff Member
                     Antonina King, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Carl Gershman, President, National Endowment for Democracy...     7
Mr. Joy Mabenge, Democracy and Governance Officer, Institute for 
  a Democratic Alternative for Zimbabwe..........................    23
Nicole Lee, Esq., Executive Director, TransAfrica Forum..........    29
The Honorable Lorne W. Craner, President, International 
  Republican Institute (former Assistant Secretary for Democracy, 
  Human Rights and Labor)........................................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Carl Gershman: Prepared statement............................    11
Mr. Joy Mabenge: Prepared statement..............................    26
Nicole Lee, Esq.: Prepared statement.............................    32
The Honorable Lorne W. Craner: Prepared statement................    46

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75


             ZIMBABWE: OPPORTUNITIES FOR A NEW WAY FORWARD

                              ----------                              


                         THURSDAY, MAY 7, 2009

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2172, Rayburn House Office Building, Hon. Donald M. Payne 
(chairman of the subcommittee) presiding.
    Mr. Payne. The hearing will come to order. First of all, 
let me begin by welcoming all of this morning's very important 
guests to the Subcommittee on Africa and Global Health's 
hearing entitled, ``Zimbabwe: Opportunities for a New Way 
Forward.''
    Zimbabwe's political, economic, and humanitarian crises 
make headlines nearly every day. What is often forgotten is 
Zimbabwe's great history. Zimbabwe's history is one which can 
only be explained by how it has fallen from a place of 
prominence to the current state but can also offer hope and 
promise for the future.
    As a former history teacher, I am a true believer in the 
importance of placing things in their proper historical 
contexts. As we all know, the British South African Company 
arrived in Mashonaland, the land of the Shona people, in 1890 
and gave each of its settlers 1,210 hectares of land. The 
settlers waged war against the Indebel people in 1893 to 1894, 
resulting in Africans being confined to native reserves known 
as ``communal areas.''
    According to a CRS report, the Land Apportionment Act of 
1930 formally set aside over half of the country's total land, 
including the most fertile zones, for Whites only, and the Land 
Tenure Act of 1969 allocated most of the remaining unreserved 
land to so-called ``European areas'' while denying Africans any 
possibility of acquiring land in those areas.
    There has been an influx of European settlers after World 
War II, and by the 1960s, there were more than 200,000 Whites 
in Zimbabwe while Africans numbered about 7 million.
    The territory became a self-governing colony, known as 
``Southern Rhodesia,'' in 1923.
    In the 1960s African resistance to the White regime began 
just as it had been taking place elsewhere on the continent. 
Ghana had become independent and Sudan had in the late fifties. 
Kenya was moving toward that, and so this whole new spirit of 
independent was going through the continent.
    In 1972, the Freedom Movement, Zimbabwe African National 
Union (ZANU), led by Reverend Satoli and, later, by Robert 
Mugabe, and the Zimbabwe African Peoples Union (ZAPU), led by 
Joshua Nkomo, were launched.
    Bishop Musaware became Prime Minister of Rhodesia in 1979, 
after elections were held in Rhodesia, and it was renamed 
``Zimbabwe.'' Of course, those elections were less than fair. 
They were segregated elections, and of the 100 persons elected 
to the Parliament, 28 seats were reserved for the 200,000 
Whites. The 7 million Blacks had the other 72 seats, so there 
was certainly not one-person-one-vote; that is for sure.
    Later that year, the agreement was reached at Lancaster 
House in London. Robert Mugabe became Prime Minister a year 
later.
    Known then as the ``bread basket of Africa,'' Zimbabwe 
became a model in the region in the areas of election, 
infrastructure, and health. Post-independence, Zimbabwe clearly 
demonstrated much of the best of Africa and what Africans are 
capable of doing, despite decades of repressive White rule.
    White Zimbabweans were embraced, not chased out of the 
country or mistreated, as cynics predicted. Human rights were 
largely respected, and the rule of law prevailed in the 
country.
    Over the last decade, however, conditions went from bad to 
worse, in large part due to poor leadership. The once 
politically stable country became increasingly chaotic, and the 
economics left a shambles.
    Human rights abuses were extensive and increasing, and the 
government, under Robert Mugabe, seemed to care nothing for the 
rule of law. The people of Zimbabwe became the primary victims 
of the Mugabe regime.
    I have tried desperately to engage the government in a 
constructive dialogue to address these concerns over the years. 
I am resolved to help the people of Zimbabwe realize their 
dreams of true freedom.
    The method of redistribution of land from White landowners 
to political allies of President Mugabe was misguided and was 
done wrongly, therefore, preventing the process of Lancaster 
House from really playing out.
    However, the land issue is a real problem in the region, 
and I am committed to seeing a just and equitable distribution 
of land throughout southern Africa consistent with the rule of 
law.
    In 2001, I pushed the Zimbabwe Democracy and Economic 
Recovery Act through the House, and it was signed into law at 
the end of that year. The bill's principal objective, at that 
time, was to help restore the rule of law, respect for human 
rights, free and fair elections, and sound economic reform. The 
legislation provided new funding for Zimbabwe if serious 
reforms were undertaken by the government. The legislation did 
not punish the people of Zimbabwe but did include targeted 
travel bans against top government officials who fought the 
rule of law.
    The United States remains one of the largest donors in 
humanitarian aid to Zimbabwe, but our assistance is very 
limited and may not include assistance in agriculture and other 
areas that would really help Zimbabwe improve the lives of so 
many Zimbabweans.
    Many of the highly educated and hard-working people have 
fled the violence and the dire conditions and have gone to 
other countries, many to South Africa, as a matter of fact, so 
many that there was a xenophobia backlash about a year ago in 
South Africa.
    Civil society groups and political activists were targets 
of brutal violence. The economy had all but collapsed. The 
hopes and dreams of many Zimbabweans had been crushed.
    What is crucial, at this juncture, is that we look forward. 
Today, we have something most of us thought was impossible: A 
government of national unity that includes ZANU-PF and the 
Movement for Democratic Change (MDC), long-time rivals Robert 
Mugabe and Morgan Tsvangirai. We would be naive if we concluded 
that, therefore, everything is right, and all is fair, and 
everything is just, but I think we have to acknowledge that 
there is a government of national unity and that it does 
include ZANU-PF and MDC.
    I am concerned that many challenges remain, and there are 
those who want to see this government fail. However, we should 
remember that this kind of arrangement has worked successfully 
elsewhere in Africa. South Africa is a classic example.
    What is important to remember is that if these two folds 
can come together, and if we provide the right type of 
assistance to help build democratic institutions and help 
restore the economy so that public services can be restored, 
people can buy or grow the food they need, and real education 
can again return, Zimbabwe may once again become the great 
model and source of African pride it once was.
    We must help strengthen the institution of democracy. While 
we should maintain our target of sanctions against individuals, 
we must seriously consider removing some of the sanctions 
imposed on Zimbabwe and provide assistance to ensure success.
    I urge us to consider how we can make that happen. That is 
what this hearing is about, to explore the opportunities for a 
new way forward, and that is what we continue to try to focus 
on, a way forward, and how we can guide our policy in Zimbabwe 
so it makes it a very difficult challenge to try to separate or 
segregate or move forward when we still have remnants of ZANU, 
which still has a very strong fist that is pounded daily.
    Unfortunately, there is no government panel this morning. 
The Senate has yet to confirm Ambassador Johnny Carson as 
Assistant Secretary of State, and the State Department felt 
that USAID should not testify today. So we are anxiously 
awaiting the State Department to finally get a Department so 
that we can move forward on some of these very, very difficult 
issues.
    Instead, we have a distinguished panel of private 
witnesses, and, therefore, we are not short for talent.
    Carl Gershman is president of the National Endowment for 
Democracy; Joy Mabenge is the democracy and governance officer 
for the Institute for a Democratic Alternative for Zimbabwe; 
Nicole Lee is the executive director of TransAfrica Forum; and 
the Honorable Lorne Craner is president of the International 
Republican Institute.
    We welcome each of you. We look forward to your testimony, 
and I will introduce you very thoroughly after we hear opening 
remarks from my colleague from New Jersey, our ranking member, 
Mr. Smith.
    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman, 
for calling this hearing, and good morning, everybody. It is 
good to see so many good friends on the panel and for many 
years in the fight for human rights and democratization around 
the world, including in Zimbabwe.
    We are all familiar with the sad reports from Zimbabwe, the 
world's fastest-shrinking economy, where prices are known to 
double every 24 hours. This week, the IMF released new figures 
measuring inflation at 500 billion percent and economic growth 
at a negative 14 percent last year.
    Such numbers cannot convey the tragedy, however, lived by 
millions of Zimbabweans. Until relatively recently, Zimbabweans 
lived in one of the most prosperous African countries, but, 
right now, millions of Zimbabweans know only hopelessness, 
poverty, mass unemployment, and the breakdown of healthcare and 
education.
    The mass immigration of some 3-4 million Zimbabweans 
underscores the dire situation and suffering caused by economic 
failure. This is not the result of accidental misrule or weak 
government in chaotic conditions but of Robert Mugabe's 
determination to ruthlessly pursue total control over his 
country.
    This has been about political control. Mugabe is a declared 
admirer of the North Korean Juche system, and his violent 
harassment of the opposition, courageous human rights activists 
and journalists, includes torture.
    Mugabe has also pursued economic control. According to the 
Heritage Foundation's Index of Economic Freedom, in 2009, 
Zimbabwe ranked 178th, right behind Cuba and right in front of 
last-place North Korea.
    While Mugabe and his ZANU-PF Party have not been able to 
achieve the same control over Zimbabwe as the Kim family has 
over North Korea, Zimbabwean civil society and human rights 
activists have heroically organized themselves in opposition to 
Mugabe. They have understood for years that the only way 
forward for Zimbabwe will be to free itself from Mugabe and the 
criminal elements of ZANU, and after too many years of 
tolerating, and even lauding, Mugabe's rule, the international 
community seems to have come to the same conclusion.
    Since Mugabe and his hard-line security chiefs have not 
given any signs that they will not go peacefully, a gradual 
solution seemed best. We all hope that the power-sharing 
agreements with Morgan Tsvangirai and the Movement for 
Democratic Change (MDC) creates a new situation in which ZANU 
would have to loosen its choking grip on the country.
    But after several months of promising reports of the work 
of the MDC ministers, only yesterday, we read reports that some 
18 opposition leaders and activists will be rearrested. I am 
informed that the decision to rearrest has been reversed, but 
ZANU's continuing abuses cast a shadow over the Unity 
Government.
    I look forward, again, to our hearing and especially to the 
insights provided by our distinguished panel of witnesses and 
yield back the balance of my time.
    Mr. Payne. Thank you very much, Mr. Smith.
    Today, we are pleased to be joined by our distinguished 
panel--Mr. Gershman, Mr. Mabenge, Ms. Lee, and Mr. Craner--to 
discuss the current situation in Zimbabwe and opportunities to 
support democracy there.
    First, we have Mr. Carl Gershman. Mr. Gershman is the 
president of the National Endowment for Democracy, a private, 
congressionally supported, grant-making institution with the 
mission to strengthen democratic institutions around the world 
through nongovernmental efforts.
    In addition to presiding over the Endowment Grants program 
in Africa, Asia, the Middle East, Eastern Europe, the former 
Soviet Union, and Latin America, he oversees the creation of 
the Quarterly Journal of Democracy, the International Forum for 
Democracy Studies, and the Reagan-Fascell Democracy Fellows 
program.
    In 1999, Mr. Gershman took the lead in launching the World 
Movement for Democracy in New Delhi, which is a global network 
of democracy practitioners and scholars. Mr. Gershman is 
currently encouraging other democracies to establish their own 
foundations devoted to the promotion of democratic institutions 
in the world, and they have been extremely successful in moving 
democracy forward, even in a number of the former Warsaw Pact 
countries behind the Iron Curtain, and, of course, in new 
democracies in Latin America, Africa, and in Asia.
    Next, we have Mr. Joy Mabenge. Mr. Mabenge political 
economist currently working for the Institute for a Democratic 
Alternative for Zimbabwe (IDAZIM) as democracy and governance 
program manager. IDAZIM is a think tank currently working on 
five critical areas dealing with the transition in Zimbabwe, 
including democracy and governance, the economy in transition, 
transitional justice, international relations, and is setting 
up a multi-university, virtual Leadership Academy.
    Prior to joining IDAZIM, Mr. Mabenge was the executive 
director of Zimbabwe's Coalition on Debt and Development 
(ZIMCODD), a social- and economic-justice movement, where he 
worked for 8 years.
    Mr. Mabenge is a committed human-rights and social-justice 
activist, having served in the National Constitutional 
Assemblies in Zimbabwe, a movement pushing for people-driven, 
constitutional-making reforms in Zimbabwe since 1997, both as 
regional chairperson for the Harare Province from 2001 to 2006 
and then national advocacy chairperson from 2006 to 2008.
    Mr. Mabenge sits on various governance structures of civil 
society organizations in Zimbabwe, including the Crisis in 
Zimbabwe Coalition, Students Solidarity Trust, and the Mens' 
Forum on Gender. He holds a master's degree in development 
studies--political economy from the University of Manchester's 
Institute for Development Policy and Management, a University 
of Zimbabwe's post-graduate diploma in project planning and 
management, preceded by undergraduate studies in political 
science and administration. He is a British Chevening 
Scholarship alumnus.
    Next, we have Ms. Nicole Lee, the executive director of 
TransAfrica. She was appointed to this position in December 
2006 by the board of directors, led by Chairman Danny Glover. 
As executive director of TransAfrica Forum, Ms. Lee often 
travels abroad, not only to the African continent but also the 
countries with large Afro-descendant populations, such as 
Brazil, Venezuela, Haiti, and Colombia. She spends her time 
interacting with people on the ground and then conveys their 
concerns about human and political rights issues to U.S. 
politicians, policy-makers, and other agencies whose work 
impacts on the global African population.
    Ms. Lee earned a law degree from the University of Buffalo 
and served as an International Law Fellow. She interned in 
South Africa, working on environmental class-action suits.
    After graduating from law school, she moved to Haiti, where 
she worked for a human rights organization that investigated 
and prosecuted the human rights violations of the military 
during the 1994 coup in Haiti.
    Returning to the United States in 2004, Ms. Lee also worked 
as a lobbyist in Washington, DC, eventually serving as director 
of operations at TransAfrica Forum. Ms. Lee is the first female 
executive director of TransAfrica Forum, an organization which 
promotes justice, progress for the international African 
community, and, I guess, now gender rights, too. Ms. Lee's 
passion for human rights and activism has propelled her to the 
top of this great organization, which is, as we all know, a 
leading advocate for human rights and democracy building around 
the world.
    Ms. Lee's opinion-editorials have been published in The 
Nation, Tom Paine, theroot.com, Final Call, and she is a weekly 
contributor to the National Newspaper Publishers Association. 
Ms. Lee is a frequent guest on BBC, NPR, Pacifica Radio 
Network, ``Democracy Now,'' and the ``Tavis Smiley Show.''
    Finally, we have the Honorable Lorne Craner, current 
president of IRI. Since Mr. Craner returned to the IRI, 
International Republican Institute, as president in 2004, he 
has led the strengthening of IRI's programs in countries, such 
as Afghanistan, Colombia, China, Pakistan, Indonesia, and Iraq. 
Under Mr. Craner's leadership, IRI has broadened its work in 
governance, women's participation, access for the disabled, and 
the use of technology in democracy promotion and program 
evaluation.
    IRI has also built an unprecedented level of cooperation 
with U.S. and foreign democracy-building organizations, and the 
IRI held its two most successful fundraisers since Mr. Craner's 
return.
    Previously, Mr. Craner was assistant secretary for 
democracy, human rights, and labor for Secretary of State Colin 
Powell. Among other accomplishments, he initiated the first 
U.S. Government program to advance democracy in China, helped 
construct the Millennium Challenge Corporation's Good 
Governance Criteria, sharpened the administration's focus on 
human rights in Central Asia, and contributed to the conception 
and implementation of the administration's approach to 
democratization in the Middle East.
    Upon his departure, Mr. Craner received the Distinguished 
Service Award, the State Department's highest honor, from 
Secretary Colin Powell.
    In 1995 to 2001, Mr. Craner, as IRI's president, led the 
institution to new levels of programmatic achievement, fund-
raising, financial accountability, and news coverage. He joined 
IRI as vice president of programs in 1993.
    From 1992 to 1993, he served at the National Security 
Council as the director of Asian affairs under Brent Scowcroft, 
and, from 1989 to 1992, he was deputy assistant secretary of 
state for legislative affairs during James Baker's tenure.
    Mr. Craner was Senator John McCain's legislative assistant 
on foreign policy from 1986 to 1989. He began his career as the 
then-Congressman Jim Kolbe's foreign policy LA, and Mr. Kolbe 
ended up as the chairman of the Appropriations Committee for 
Foreign Ops.
    In June 2007, Mr. Craner was again confirmed by the U.S. 
Senate to a seat on the Millennium Challenge Corporation's 
Board of Directors. Mr. Craner is also on the boards of the 
National Committee on U.S.-China Relations, the InterNews 
Network, and the policy board of the University of Michigan at 
Ann Arbor's Weiser Center for Emerging Democracies.
    A member of the Council on Foreign Relations, he has 
testified, on numerous occasions, before the House and Senate 
committees.
    Mr. Craner received a master's degree from Georgetown and 
his undergraduate degree from Reid College.
    We certainly have people who are well qualified, and we 
will begin now with Mr. Carl Gershman.

 STATEMENT OF MR. CARL GERSHMAN, PRESIDENT, NATIONAL ENDOWMENT 
                         FOR DEMOCRACY

    Mr. Gershman. Thank you, Mr. Chairman, Mr. Smith, and Mr. 
Royce, all good friends of the NED. I want to thank you for 
inviting me to testify on what can be done to advance democracy 
in Zimbabwe, and also I want to thank the committee, on the 
occasion of the NED's 25th anniversary, for its bipartisan 
support over these many, many years. I would like also, Mr. 
Chairman, to thank you, personally, for your 9 years of service 
on the NED Board and also for all that you do for democracy and 
for Africa.
    My testimony this morning is going to be based not just on 
our own analysis of what is happening but also I would like to 
reflect the views of our many grantees in Zimbabwe, well over a 
dozen grantees, groups like the National Constitutional 
Assembly and the Zimbabwe Elections Support Network, and many 
others, and what they have to say about the situation.
    Though President Mugabe has said that nothing has changed 
in Zimbabwe with the Global Political Agreement, there are 
clear signs that the country is beginning to recover 
economically and that the public mood has shifted.
    We support a group called the Mass Public Opinion 
Institute, which just released a poll saying that some 70 
percent of the respondents described the country's economic 
condition as better than the previous year, and 82 percent felt 
that the economic condition would be better a year from now. So 
there are expectations. There is hope.
    At the same time, we know that the ZANU-PF has retained its 
hold on the levers of power: The ministries of police, army, 
judiciary; broadcast media, daily newspapers, and so forth.
    Last week, Tendai Biti--I know you met with him as well, 
Mr. Chairman--spoke at the National Endowment for Democracy and 
he talked about the corrupt hardliners within the ZANU-PF who 
are trying to sabotage the reforms that were committed to in 
the National Political Agreement. He referred to them as 
``catfish,'' preferring to lie in the mud of corrupt patronage 
rather than try to move toward reform.
    So we know that there are these problems and that these 
issues are reflected in the press every day.
    Just yesterday, Nelson Chamisa, the spokesman for the MDC, 
threatened to withdraw from the government if Judge Cheminda 
did not reverse her decision to withdraw the bail and 
reimprison the 18 democracy activists, including Justina 
Mukoko, and to allow them to be free on bail. She did reverse 
her decision.
    At the same time, the MDC has issued an ultimatum that if, 
by Monday, they cannot reach an agreement over Mugabe's claim 
that he has the unilateral authority to appoint provincial 
governors, permanent secretaries, and to remove the Federal 
bank governor, Gideon Gono, that they are going to convene the 
highest-decision-making body a week later to consider whether 
or not they will stay in the government.
    So this is a struggle that is going on as we speak, and it 
could go either way, but I think there really is no alternative 
to try to move forward and to try to make this agreement work, 
looking toward the constitutional reform process and then the 
elections in 2011.
    Mr. Smith mentioned North Korea, and Mr. Royce and I have 
worked a lot together on North Korea. Not only is Zimbabwe 
different from North Korea, but it would be inconceivable to 
imagine this kind of a power-sharing agreement in a country 
like Burma, for example, or Cuba, or even a country like Egypt.
    So there is an opportunity here, however difficult it is, 
and I think we simply have to move forward.
    In the testimony that I submitted this morning, Mr. 
Chairman, we presented you with six recommendations, some of 
which pertain to exactly your point in your opening statement.
    The first has to do with human rights, and the government, 
in our view and in the view of the grantees that we support, 
obviously needs to release the remaining political prisoners 
and review all of the pending cases and establish a commission 
to review judicial appointments as the first step toward 
establishing a genuine rule of law.
    It is very important to develop an inclusive and 
transparent process of constitutional reform, including the 
establishment of an independent and impartial election 
commission, as recommended last week in a report by the 
Zimbabwe Elections Support Network and the Electoral Institute 
of Southern Africa.
    This process should be a people-driven process, not just 
done by the elites in the country. The National Constitutional 
Assembly has called for an all-stakeholders' conference to 
determine the appropriate structures and procedures for the 
constitutional process, and it will include representatives 
from government, political parties, trade unions, business, 
churches, traditional religious groups, women's groups, youths, 
farmers, veterans, traditional leaders, media, the diaspora, 
and the broader civil society.
    This Stakeholders' Commission should undertake extensive 
consultation with the people, compile and disseminate a draft 
constitution that could be presented in the National 
Referendum.
    Civil society needs to be supported. The ban on pro-
democracy, nongovernmental organizations should be lifted. 
Civil society plays a critical role in serving as a channel of 
communications between the government and the people and also 
as a countervailing power to the authoritarian forces within 
the state. There is, obviously, great concern with the 
precedent, in 1987, of the Unity Accord, where the ZANU was 
able to absorb Joshua Nkomo's ZAPU, and people are very worried 
about that, and civil society plays a critical role in 
preventing that.
    It is very important to foster independent media, to lift 
the restrictive media laws, including the Access to Information 
and Protection of Privacy Act, to begin to develop the capacity 
for independent newspapers and broadcasters and to improve 
access to state-controlled media, easing the availability of 
operating licenses and providing assistance to enhance 
independent media in the country.
    The fifth issue is a very critical one in all transitional 
countries, which is the whole question of establishing a 
process of transitional justice, how to deal with crimes of the 
previous regime. There are people, obviously, strong voices in 
the civil society, that are arguing for retributive justice, 
truth seeking, and, as the head of the ZED CTU said, ``Leading 
a fight against the culture of impunity.''
    At the same time, recent post-conflict transitions confirm 
the difficulty and the delicacy of securing an appropriate and 
equitable balance between justice and reconciliation, and there 
is a dilemma, of course, that, with elections expected to 
follow the constitutional reform, in 2011, the prospect of 
prosecution gives an incentive to culpable members of the 
ruling elite to sabotage the process.
    A CRS report recently noted that Mugabe and other senior 
officials may resist a peaceful exit from power if they fear 
subsequent prosecution.
    I think that Zimbabweans should look at the experiences of 
other countries that have dealt with this process. Maybe a 
panel of experts could be established to examine similar 
transitional-justice processes in post-conflict societies to 
determine the most appropriate measures and mechanisms to adopt 
in Zimbabwe.
    And, finally, Mr. Chairman, in relation to your main point, 
the issue of economic assistance to Zimbabwe at this critical 
period, in the absence of genuine reform, the international 
community has, understandably, been reluctant to release funds 
for the Government of National Unity, yet the legitimacy and 
credibility of democratic reformers within the government will 
largely depend on its ability to restore not only the economy 
but also basic services and living standards.
    Consequently, there is a compelling case to be made, in our 
view, for a more creative approach to funding that targets 
specific needs, bypasses corrupt or partisan institutions like 
Zimbabwe's Reserve Bank, keeps targeted sanctions like travel 
bans and asset freezes, and assists both the Zimbabwean people 
and reform-minded elements within the government with the 
process of economic recovery and reconstruction.
    This humanitarian-plus approach, whereby purely 
humanitarian aid is complemented by support for reconstruction 
in areas of education and health, infrastructure, water 
sanitation, food security, and governance will provide a major 
boost to reformers within the government.
    The chances for realizing the commitments of the Global 
Political Agreement, developing genuine power sharing and 
initiating meaningful constitutional reform leading to free 
elections, will, of course, be dependent on political will, 
and, in the end, it is the people of Zimbabwe who must grapple 
with solutions to the many problems they face. But it is also 
imperative that the United States and the entire international 
community be engaged, as fully as possible, in supporting the 
forces of democratic reform, economic recovery, and sustainable 
political stability.
    There is now an opportunity for Zimbabwe to move forward 
after a terrible period of trauma, and I think this opportunity 
should be seized. Thank you.
    [The prepared statement of Mr. Gershman 
follows:]<greek-l>Gershman deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much. Mr. Mabenge?

STATEMENT OF MR. JOY MABENGE, DEMOCRACY AND GOVERNANCE OFFICER, 
      INSTITUTE FOR A DEMOCRATIC ALTERNATIVE FOR ZIMBABWE

    Mr. Mabenge. Mr. Chairman and members of the committee, I 
request that the entirety of my statement, along with 
additional material, be submitted for the record.
    Mr. Payne. Without objection.
    Mr. Mabenge. Mr. Chairman and members of the committee and 
representatives of various stakeholders, it is, indeed, a great 
honor for me to appear before this distinguished committee to 
give testimony on ``Zimbabwe: Opportunities for a New Way 
Forward.''
    I am strongly inspired, Mr. Chairman, by my daily 
experience, in which I see my country move toward relative 
stability.
    Mr. Chairman, I am equally worried by the grave human 
insecurities that we still face as citizens. Since the 
inception of the Transitional Inclusive Government, in February 
2009, I have seen real opportunities for the restoration of our 
dignity and human rights.
    I am informed by the realities that I witness as a 
democracy and governance manager in my organization, IDAZIM. 
Mr. Chairman, almost 3 months into the life of the inclusive 
government, tragic realities are still with us. Coupled with a 
number of outstanding matters agreed to by the three political 
parties, as well as breaches of the Agreement by Mr. Mugabe's 
party, the skepticism informing the donor community remains 
real.
    Mr. Chairman, it is not all gloomy in the country. However, 
the current state of affairs presents a window of opportunity 
for a new way. That today marks exactly 84 days since the 
formation of the Transitional Inclusive Government is, in 
itself, a miracle.
    The political landscape, Mr. Chairman, is, however, 
shifting. Political, pro-democracy groups are enjoying 
unprecedented control of key democracy leverage in institutions 
and policy processes. We are aware, Mr. Chairman, that the 
former opposition, the MDC-T and MDC-M, control the Lower House 
of Parliament. The MDC-T has the speakership of this very 
important part of the legislature.
    In local government, the MDC-T and MDC-M formations control 
54 out of 88 local government authorities. ZANU-PF controls 34. 
Thus, with the control of all urban councils, the MDC is now in 
charge of local government in Zimbabwe.
    Mr. Chairman, on the balance, events in Zimbabwe are 
tilting toward pro-democracy groups. These gains need to be 
protected, defended, and consolidated.
    A key challenge to the unity government, however, is lack 
of fiscal resources. Last week, the Prime Minister, Hon. Morgan 
Richard Tsvangirai noted that he inherited empty treasury 
coffers. In the absence of a meaningful economic stimulus, the 
government is broke and cannot afford to provide critical 
services and payment of civil service salaries.
    With manufacturing and industry at an all-time low, there 
is no internal capacity to address the country's resource gap. 
As such, Zimbabwe is in urgent need of international support of 
at least, U.S. dollars, $8.5 billion.
    Mr. Chairman, that 84 days later, the inclusive government 
continues to struggle to raise the financial resources required 
to get the economy back on the path of recovery, beyond 
humanitarian assistance, so far availed, is a deep worry. Civil 
servants amongst them, our very important academic and teaching 
staff, continue to be paid an allowance of USD $100 across the 
board. Trade unions are beginning to break rank and demanding a 
minimum range of USD $450.
    The possibility of a nationwide strike is real. This plays 
directly into the hands of hardliners who are looking for 
opportunities to demonstrate that the unity government is a 
farce and to roll out the machinery of force to quell any 
potential disruptions to public peace and security.
    Mr. Chairman, I am aware that the current common position 
among most donors, multilateral or bilateral, is based on the 
attainment of specific benchmarks to be met by the new 
government in Zimbabwe before aid can be extended beyond the 
current humanitarian assistance.
    Mr. Chairman, these benchmarks are necessary but 
insufficient in moving Zimbabwe to full democracy via the unity 
government transitional route. Delays in aid have the potential 
of undermining people of confidence in the capacity of delivery 
of the government of national unity.
    Mr. Chairman, my paper speaks to the level of contribution 
that has been done by the U.S. Government.
    Mr. Chairman, I urge the new administration of the U.S. 
Government to stop looking for stability factors but to begin 
to see stability factors, as any delay may have unintended 
consequences and play into the hands of those of the old guard 
itching to have this opportunity wrecked.
    Mr. Chairman, I note here that our considered opinion is 
for the U.S. Government to shift policy from smart sanctions 
toward targeted cooperation and smart assistance. I am 
recommending smart assistance in the form of rewarding, through 
targeted assistance, key drivers of democratic reforms. In this 
regard, Mr. Chairman, targeted sanctions, especially against 
those individuals and entities that continue to work against 
democracy and the rule of law must remain in force.
    Mr. Chairman, democratization is a process and not an 
event, and the U.S. Government should find new ways of 
supporting progressive components of the inclusive government.
    Mr. Chairman, let me illuminate, through an example from 
last year. In the face of critical elections and opportunity, 
the donors contributed resources to enable civil society groups 
and citizens to monitor and observe our elections across the 
country. Close to 10,000 election observers were deployed by a 
budget provision of a modest USD $3.4 million. Of these 
observers, a significant number were teachers in rural and 
isolated areas, men and women devoted to investing education so 
that future generations are not lost.
    In the violence that characterized the aftermath of the 
elections, many of these teachers had their schools, homes, and 
even identity documents destroyed. Many of those affected were 
young women who were gang raped in a time of HIV/AIDS. Today, 
they are asking the government they helped to bring to power 
for a living wage. This is one strategic area where the donors 
can make tangible progress. By getting education going again, 
getting young girls back in class means they will not be 
victims of sexual trafficking and predatory practices so 
prevalent in our unequal society. I think we are in a moment of 
opportunity, and your leadership is required.
    Mr. Chairman and members of the committee, I remain 
grateful and humbled by your invitation for me to testify 
before this distinguished subcommittee. Zimbabwe is at a 
crucial moment. It is the moment to save it or see it recede 
into the anarchy that I shudder to see repeated after the orgy 
of violence that we witnessed last year. I look forward to 
responding to questions. Thank you.
    [The prepared statement of Mr. Mabenge 
follows:]<greek-l>Mabenge deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much. Ms. Lee?

STATEMENT OF NICOLE LEE, ESQ., EXECUTIVE DIRECTOR, TRANSAFRICA 
                             FORUM

    Ms. Lee. Good morning.
    Mr. Payne. Good morning.
    Ms. Lee. Mr. Chairman, Mr. Smith, esteemed members of the 
subcommittee, thank you for the opportunity to testify on a new 
way forward for Zimbabwe. My remarks here today are a summary 
of our written testimony submitted to the subcommittee.
    Mr. Chairman, exploration of the new approaches for United 
States policy toward Zimbabwe is long overdue. The situation in 
Zimbabwe remains extremely unstable. Since the February 2009 
the swearing-in of the new Government of National Unity, there 
has been some slowing of the country's economic decline as new 
fiscal policies take effect. Today, the United States and other 
Western nations are challenged to discern how to best support 
Zimbabwe's forces for change.
    The policy approaches of the past are not the appropriate 
tools for the present and, in fact, are likely to undermine the 
very actors that need our support. Negotiations have led to an 
inclusive government which joins the parties headed by Morgan 
Tsvangirai, as Prime Minister, with his former rival, President 
Robert Mugabe. The new government, transitional in nature, is 
responsible for developing a new constitution and for holding 
fresh elections in 2 short years.
    A full analysis of the elections and their aftermath is 
contained in the TransAfrica Forum's 2008 report, Zimbabwe: A 
Dream Deferred, which has also been submitted for inclusion in 
the record.
    The violence following the March 2008 elections was 
extremely widespread. The atrocities included thousands of 
beatings, destruction of property, and forced participation in 
ZANU-PF political meetings. The worst of the ruling party's 
violations are unequivocally crimes against humanity.
    The evidence of abuse continues as recently as yesterday, 
when Zimbabwean courts ordered, and the rescinded the order, 
for the detention of 17 previously released Zimbabwe civil 
society and opposition activists. The arrests are the latest in 
a series of acts of intimidation, including extralegal 
abductions undertaken by Zimbabwe's military and security 
operatives designed to undermine the current government of 
national unity.
    The prospects for restraining the security sector are 
unclear. Repressive laws and structures remain in place. 
Members of the security forces who participated in the abuses 
remain on the government payroll.
    The health of the general population remains a major 
concern. The most visible sign of the collapsed healthcare 
system has been the cholera epidemic. Almost 90,000 cases were 
reported, resulting in nearly 4,000 deaths.
    The country's formerly stellar education system has ceased 
to function, resulting in a lost generation of youth who have 
not had access to education for prolonged periods, and 
approximately two-thirds of the country relies on food relief.
    Hunger remains a threat due to the collapse of the 
agricultural sector, which, in the example of the terrible 
harvest of 2008, left millions of people in need of food 
assistance, and though the April 2009 harvest was better, the 
limited purchasing power of the urban households continues to 
constrain their food access.
    In addition, Zimbabwe is heavily indebted, with 
approximately $5 billion owed to multilateral financial 
institutions. The country's $1.4 billion in arrears leaves it 
ineligible for loans, thus, today, the country is bankrupt.
    This new unit government is hamstrung by the legacy of 
corruption, lack of accountability, transparency, and 
mismanagement. These problems can only be overcome by 
maintaining momentum toward a genuine democracy. This requires 
support for its short-term, emergency-recovery program.
    TransAfrica urges the Congress and the executive branch to 
adopt the following course of action: First, to expand support 
for democracy and governance programs. In 2008, USAID provided 
human rights, trade union, election monitoring, and reporting 
on the election process. These resources were critically 
important. As the focus of activity moves from election-related 
activities to the difficult task of rebuilding democratic 
structures, broad support for community-based organizations is 
essential.
    Second, we need to continue humanitarian support, including 
food delivery and HIV/AIDS medication. Again, while the 2009 
harvest increased the level of food supplies, Zimbabwe remains 
food insecure. The country will continue to need food 
assistance for some time.
    Thirdly, the appointment of a special envoy. U.S. 
Ambassador McGee has received high marks for his work in 
Zimbabwe. However, the regional nature of this crisis requires 
a comprehensive approach that can only be accomplished through 
the appointment of a U.S. Special Envoy with a mandate to 
engage the government, the U.N., multilateral agencies, as well 
as various civil society actors working throughout the region.
    Fourth, support a debt audit. Civil society groups in 
Zimbabwe have long called for an audit of Zimbabwe's debt. 
Currently, most debt analysts believe that the majority of the 
country's debt is largely odious, highlighting the need for a 
thorough audit. Additionally, a comprehensive audit could 
reveal not only the status of bi- and multilateral loan 
agreements but could also uncover evidence of fraud and 
mismanagement.
    Fifth, contribute to the Multi-Donor Trust Fund. The 
recently announced Multi-Donor Trust Fund is administered by 
the United Nations Development program, the International 
Monetary Fund, the World Bank, and the African Development 
Bank. It works in coordination with the inclusive government to 
ensure payment of the country's prioritized expenses.
    The trust fund will provide payment support for the 
following economic and social-development activities: Monthly 
stipends to those providing essential social services; 
rehabilitation of physical infrastructure; audit of the civil 
service; technical support for small-holder farmers; credit 
mechanisms for commercial farming; industrial development and 
small business development; and the training for the reform of 
the security sector and civil society structures oriented to 
the community.
    Certainly, there are risks involved in providing support to 
Zimbabwe's economic development. As human rights activists and 
researchers point out, the fundamental systems of repression 
and corruption remain in place.
    In addition, the MDC, while a recipient of the majority of 
the vote, remains a minor player in the inclusive government.
    ZANU-PF retains control of the security sector, while MDC 
is responsible for the massive economic mess and its 
reconstruction, but be that as it may, for those committed to 
supporting a democratic result in Zimbabwe, a fundamental 
question is, given these circumstances, what is the best course 
of action?
    The strategy of donor nations has been to facilitate the 
collapse of the country's economy, expecting that Mugabe and 
ZANU-PF would, in turn, collapse, and while Mugabe has been 
move to the negotiating table, he has not fully conceded power 
and retains a level of support amongst the population. In this 
uneven playing field, donor nations demand that the inclusive 
government produce concrete evidence of change, yet the change 
agents are handicapped by both a lack of access to resources, 
as well as the intransigence of the Mugabe forces.
    Targeted support that prioritizes the needs of the most 
vulnerable, is transparent and accountable, and is framed by 
priorities outlined in the short-term economic recovery program 
is one reasonable way forward.
    TransAfrica does not make these recommendations likely. The 
conditions in which Zimbabweans find themselves, and the 
prospect of deeper decay and disruption, require a change.
    Mr. Chairman and members of the subcommittee, I thank you 
for this opportunity to share TransAfrica's vision for 
Zimbabwe, and we look forward to working closely with you to 
reestablish Zimbabwe as a self-sufficient, thriving democracy. 
Thank you.
    [The prepared statement of Ms. Lee 
follows:]<greek-l>Lee deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you. Mr. Craner?

    STATEMENT OF THE HONORABLE LORNE W. CRANER, PRESIDENT, 
INTERNATIONAL REPUBLICAN INSTITUTE (FORMER ASSISTANT SECRETARY 
             FOR DEMOCRACY, HUMAN RIGHTS AND LABOR)

    Mr. Craner. Mr. Chairman, Congressman Smith, and members of 
the subcommittee, thank you for the opportunity to testify 
today. Your hearings are, as always, timely.
    As you noted, Mr. Chairman, that a unity government even 
exists in Zimbabwe is a remarkable success, and there have been 
hopeful signs over the last few months, but the Global 
Political Agreement, the basis for the new government, is 
imperfect, and the MDC must be vigilant against their 
relegation to wholly junior partners by ZANU-PF.
    On the plus side, the Finance Ministry, under the capable 
leadership of MDC General Secretary Tendai Biti, has taken 
significant initial steps to stabilize the free-falling 
Zimbabwean economy.
    In March, the government released its Short Term Economic 
Recovery program (STERP) and, in April, officially abandoned 
the Zimbabwe dollar in favor of the South African rand and U.S. 
dollar. The government has recently begun paying civil servants 
and teachers, and food is beginning to appear on the shelves in 
stores, and humanitarian assistance is increasingly reaching 
rural areas.
    Politically, independent papers are beginning to return, 
and a parliamentary committee has been appointed to draft a new 
constitution to form the basis for new elections. We, at IRI, 
have seen this political opening firsthand, as we have been 
able to extend our work to include democratic activists outside 
the Cities of Harare and Bulawayo, but with the government an 
unholy marriage of contradicting interests, there remain huge 
problems.
    Daily headlines refer to boycotts of meetings, crisis 
talks, and unilateral actions, all underscoring a lack of 
commitment by the most hardline elements in the government to 
the success of the inclusive government and, in some cases, 
representing an active desire to sabotage it. The MDC treasurer 
and nominated deputy agricultural minister, Roy Bennett, has 
been charged with high treason and remains under house arrest.
    President Mugabe unilaterally reappointed Gideon Gono as 
director of the Central Bank and Johannes Tomana as attorney 
general and announced that the ZANU-PF-controlled Transport 
Ministry would take over the Ministry of Information, a 
ministry held by MDC Spokesman Nelson Chamisa.
    Although it has lessened, the specter of violence hovers 
over Zimbabwe, particularly in rural areas, and, as we all 
know, just this week, 18 human rights activists and MDC members 
were rearrested after previously being released on bail. 
Violent farm invasions and seizures continue.
    There is no doubt that Zimbabwe is at a critical 
crossroads. In the best-case scenario, the inclusive government 
could succeed, the MCC could prove its ability to rule fairly 
and effectively, and a new constitution could be created, 
ultimately leading to transparent elections. But even setting 
aside ZANU-PF intransigence, this is no small task.
    At this important time, I think it is critical that the 
U.S. continue to actively promote an environment receptive and 
conducive to democratic reform. I would recommend the adoption 
of five guiding principles.
    Number one: Recognize that the inclusive government is an 
imperfect and interim arrangement, a first step along the path 
of a democratic transition. It is not, and never will be, a 
fair representation of the wishes of the Zimbabwean people. 
Economic stabilization and immediate relief of the humanitarian 
crisis is of utmost importance, but the inclusive government 
will have failed if it does not lead to a new constitution, new 
elections, and new government.
    Donors should, therefore, specifically consider monetary 
support and technical assistance to facilitate the 
constitutional-review process and the structuring and 
depoliticization of the electoral commission.
    The international community should also continue to support 
the efforts of Zimbabwean NGOs and democratic activists who 
will hold the inclusive government accountable to their 
promises.
    Of equal importance, pro-democratic parties must be given 
the support they need to develop party structures to ensure 
their continued competitiveness.
    Second, successes should be measured locally. Though 
perform at the national level is vital, its extent can only be 
determined by the quality of its expansion outside the capital. 
Those in rural areas have suffered most by ZANU-PF's abusive 
patronage network. Support should be given to developing 
efficient local government and helping reform-oriented mayors 
and counselors, such as those referred to by Mr. Mabenge, 
develop the skills to ensure that all Zimbabweans, and not just 
ZANU-PF supporters, receive what they deserve.
    Third, we have to accept Zimbabwe's political spectrum as 
being fluid. The donor community has, rightly, exclusively 
supported the MDC, but now the U.S. Government must be willing 
to engage with moderate ZANU-PF elements and parties as they 
emerge. Just as some former communists in Poland, the Czech 
Republic, and elsewhere came to be democrats, there are, no 
doubt, some ZANU-PF members who, through good motivation or a 
desire for self-preservation, are now more committed to a 
better future for Zimbabwe than the well-known hardliners. That 
distinction must be made if we are to influence the former and 
help neuter the latter.
    Fourth, the SADC should be a leading force in resolving the 
Zimbabwe crisis. South Africa and others have long argued that 
the Zimbabwe crisis is an African matter requiring an African 
solution. The U.S. and other Western donors have a role to 
play, but SADC should take the lead in ensuring that the 
substance and spirit of this agreement is carried out by the 
unity government in condemning violations of the agreement and 
in giving financial assistance necessary for the survival of 
the agreement they helped create.
    Fifth, and finally, our expectations have to be flexible 
and manageable. The greatest challenge facing the MDC in this 
inclusive government is the management of expectations. As the 
party leadership is well aware, both the failings and the 
successes of the inclusive government will be laid at the feet 
of the MDC, regardless of responsibility. The donor community 
must be sensitive to this and recognize that if the reformist 
element of the unity government cannot deliver on basic 
promises, their credibility will be shattered.
    Though the international community should be rigidly 
monitoring the performance of the inclusive government, it 
should not rigidly attach itself to certain benchmarks. With a 
fragile unity government, overly conditioning aid could scupper 
progress in other areas. As alluded to previously, one way in 
which the U.S. Government should pursue channels of assistance 
is outside of the inclusive government, through local and 
international NGOs.
    Mr. Chairman, as the events of recent months have shown, 
there is nothing predictable about Zimbabwe. The international 
community is right to remain hesitant in its interactions with 
the inclusive government, but I commend the committee, under 
your leadership, for encouraging dialogue about avenues of 
engagement.
    The U.S. Government should, rightly, be cautious in its 
methods of offering support, but to withhold all support would 
be an unconscionable disservice to the people of Zimbabwe. We 
must target support to lay the foundations for a better economy 
and legitimate elections, allowing Zimbabweans to exercise 
their long-denied right to be served by a government of their 
own choosing. Thank you.
    [The prepared statement of Mr. Craner 
follows:]<greek-l>Craner deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Let me thank each of the witnesses. You gave a 
tremendous amount of very well-thought-out suggestions. This is 
probably one of the most difficult, you know, situations before 
us because it is perplexed on how do you move forward, as we 
mentioned, without, you know, supporting the Mugabe regime and 
the hardliners.
    So it is very difficult, but I really appreciate each of 
you with your suggestions, and I hope that someone from the 
State Department is here. If not, we will certainly send this 
very, very important testimony to them because I think it would 
be very helpful as they move forward in attempting to come up 
with a solution.
    I should note for the record that Ambassador Johnny Carson 
was confirmed last night by the Senate. However, we will have 
to wait for him to be sworn in. I do not know when that will 
be, but, at least, we are stepping toward putting the assistant 
secretary of African affairs in place.
    Let me begin by perhaps asking a question. As we know that, 
prior to the establishment of the new inclusive government, the 
U.S. Government predicted renewed nonhumanitarian assistance to 
the Government of Zimbabwe by the government holding free and 
fair elections, among other conditions.
    Now, given that such elections are not expected to be held 
for at least 2 years, under the terms of the Global Political 
Agreement, the GPA, what interim conditions or benchmarks 
should the United States consider before expanding its direct 
engagement with the new government? I think all of you touched 
on it a bit, but I just might ask each of you perhaps to 
respond to that.
    Mr. Gershman. Thank you, Mr. Chairman. It is good news 
about Johnny Carson.
    Mr. Payne. Yes.
    Mr. Gershman. First is the issue of political prisoners, 
most immediately, and the crisis that we have just been through 
over the 18 democracy activists whose bail was revoked.
    There has to be real progress, first and foremost, on human 
rights and really starting to establish the rule of law. There 
also needs to be progress, as I said, in really opening up the 
media. That can be done now. Laws can be repealed, such as the 
AIPPA law that I referred to in the testimony, to allow the 
media to begin to function and allow NGOs to function legally 
in Zimbabwe. That, too, is critically important.
    But probably the most important thing right now has to do 
with the constitution. The foundation for these elections, if 
they are going to be successful elections, is going to be laid 
in the negotiation of the constitution. It is not just the 
content of the constitution which is critical and really 
beginning to build into it checks and balances and beginning to 
really have a strong Parliament and a strong Prime Minister to 
balance the President and the Executive, but it is also the way 
it is done. It is the process.
    This process has to be an inclusive process. They have to 
be consulting with the people, and, I think, if they do this 
the right way, in the development of this constitution, which 
should then be brought to the people, and they have 18 months 
to do that; if they do it in the right way, it will be the 
democratic experience. It will begin the process of healing 
that has to go forward now, even as we speak.
    So I think that is the most critical thing that can be done 
now. There are many other challenges, there are many other 
tensions here in a power-sharing agreement. One of the things 
we know, Mr. Chairman, from the Dayton Accords, which we are 
seeing right now, is what happens when you have a power-sharing 
agreement that is negotiated to bring a conflict to an end but 
which could contain the seeds of future conflicts, if there is 
not progress made in resolving the fundamental, underlying 
issues of crisis. That needs to be done now, while we have some 
international momentum, while, I think, people are paying 
attention to Zimbabwe, to encourage that process to move 
forward, and where you have the prospect of conditioning 
assistance on the development of the political will to address 
these problems.
    Mr. Payne. Thank you, Mr. Gershman. Mr. Mabenge?
    Mr. Mabenge. Thank you, Mr. Chairman. The main wing of the 
MDC, I understand they have given an ultimatum of Monday, the 
Monday that is coming, for all outstanding issues to be 
resolved.
    I believe that if this ultimatum is real, and the 
principals to the Global Political Agreement are sincere and 
begin to move toward a resolution of all outstanding issues, 
that is a clear benchmark of a new political will and 
commitment to resolve the outstanding issues.
    On the other hand, civil society organizations have 
established a monitoring framework, and they continue to exert 
pressure. For instance, I have issues that Mr. Gershman spoke 
to, for example, the constitutional-making process.
    The process itself and the content remain fundamental, and 
I believe if the processes of civil society and the principals 
to the Global Political Agreement are brought together, as we 
begin to witness now, we may see a real shift and change in 
commitment to the Global Political Agreement that may lead to 
the international community seeing a bit of change and 
commitment on the part of all the Zimbabweans committed to 
this.
    Mr. Payne. Thank you. Ms. Lee?
    Ms. Lee. Thank you, Mr. Chairman. I think benchmarks, 
frankly, at this point in time, that would actually get us 
where we want to be are quite illusive, in part because what we 
see when we look at the past, our history of conditioning 
assistance, we have not actually gotten the result that we had 
hoped for.
    We are in a situation now, certainly, where the GNU, as Mr. 
Craner pointed out, is very important, and we have a situation 
where, of course, we know those who have not upheld the rule of 
law are the ones that actually have in their power rule of law 
and security, whereas we see that the forces for change, if you 
will, are really stuck with a financial situation that is 
crippling.
    What they need is a win. What the Finance Ministry needs is 
to be able to actually show the Zimbabwean people that change 
will actually reap tangible things that they need: Food, 
healthcare, water.
    So I think, as we talk about benchmarks, I think it is 
important that we look at rule of law, but we also need to know 
who we are dealing with and understand that the upper echelons 
of ZANU-PF really have shown us that they can wait us out, but 
the people of Zimbabwe, the average people, cannot.
    So it is going to be important that, before the new 
constitution, before the elections, they actually see that 
there will be tangible changes and that the Finance Ministry, 
that the MDC, can be a part of those tangible changes, and we 
can help them with that.
    Mr. Payne. Thank you. Mr. Craner?
    Mr. Craner. Mr. Chairman, I would say, I think there are 
two issues here. One is the issue you raised about engaging 
with the new government, and I think, essentially, that needs 
to be on a sliding scale, depending on the progress of the 
constitution.
    I would also say, in terms of engagement, in terms of 
assistance to Zimbabwe, we need to recognize that the 
population has high expectations of this unity government, and 
if reformist elements cannot demonstrate that they can 
accomplish something, they will lose popular support, so we 
need to be conscious of that as we move forward.
    Mr. Payne. Just a quick other question. With the elections 
in South Africa, it was felt that South Africa could have a 
stronger influence on the Government of Zimbabwe, but because 
of the style or Mr. Thabo Mbeki's philosophy, not much was 
really done to push Mr. Mugabe. Perhaps he might say that there 
would not be this coalition government if he had pushed too 
hard, but do you see a new hope in the new ANC government?
    Mr. Jacob Zuma has been a little more vocal about changes 
that should be made in Zimbabwe. I just wondered what your 
opinion is. Mr. Gershman? We will go right down the line.
    Mr. Gershman. I do have some hope there. There have not 
been any strong moves yet, but I do have some hope.
    I notice, where, originally, South Africa was only going to 
invite President Mugabe to the inauguration of Zuma, because he 
is the head of state, and they said that they would only invite 
heads of state, but, just yesterday, the director general of 
the Foreign Affairs Ministry, Iyanda Nitza Lubah, said that 
they are now considering inviting Morgan Tsvangirai, as well, 
the Prime Minister.
    I think that would be a very meaningful gesture by South 
Africa, in the current situation, to invite Tsvangirai to the 
inauguration. I think we should watch that and encourage it.
    Mr. Mabenge. Thank you, Mr. Chairman. I think President 
Jacob Zuma has been quite outspoken, again, as to abuses in 
Zimbabwe. It is important to put a note to the fact that he is 
now the chairman of SADC, and it is South Africa that has 
committed about USD $80 million lines of credit toward 
supporting the resuscitation of industry.
    If Zimbabwe continues to look up to SADC and the rest of 
the world for support, I see the South African Government 
having leverage against any abuse of power within the Global 
Political Agreement.
    It is important here also to note that the SADC and the 
African Union are guarantors of this Global Political 
Agreement, and if the principals fail to resolve these issues 
by Monday or by the end of next week, they have no option other 
than to go back to SADC via the South African President, Jacob 
Zuma, and I see Jacob Zuma not taking the route that former 
President Tendai Biti took on quiet diplomacy.
    Let me just end by saying, South Africa is not interested 
in anything dramatic happening in Zimbabwe before 2010, so I 
see South Africa being a bit more vocal in avoiding any 
dramatic things, at least before 2010.
    Mr. Payne. And 2010 is World Cup, for those who do not 
know. Ms. Lee?
    Ms. Lee. Mr. Chairman, I agree with a lot of what has been 
stated, but I would like to also state the obvious. The fact of 
the matter is that some of the most powerful forces within the 
ANC that brought President Zuma to where he is are demanding 
that there be a new way, in terms of the policy between South 
Africa and Zimbabwe, and they are demanding a more powerful 
response.
    The trade unions, for example, have really demanded a 
powerful response and were very critical of President Mbeki's 
role with Zimbabwe. So I think, in and of that, he was, 
frankly, elected to really handle some of these regional 
problems, and we have, on good authority, that he will.
    Mr. Craner. Mr. Chairman, one of the things s I have 
learned over the years is that it is one thing if the United 
States hopes to see change in a region; it is helpful if Europe 
also wishes to see it, but what really matters is if the 
country's neighbors wish to see it.
    I think the fact that we have a new leader in South Africa 
who has not only said he wishes to see things move forward in 
Zimbabwe, but I think it will be important that, as the great 
regional power there, he is less negative and less of a drag on 
wishing to see progress in Zimbabwe, and I think you will see 
others come forth as a result.
    Mr. Payne. Thank you. Mr. Smith?
    Mr. Smith of New Jersey. Thank you, Mr. Chairman.
    Let me ask the panelists, political prisoners obviously 
tell the story about how well or poorly any country is doing. 
As most of us have said today, the rearrest, or the newest 
perils being faced by the 18, raises serious questions about 
that direction.
    Jestina Mukoko, as I think everyone knows, is a tremendous 
human rights activist, director of the Zimbabwe Peace Project. 
She was arrested while she slept, reportedly, by 12 thugs, 
armed thugs, who blindfolded her, made her kneel on gravel for 
some 2 days, and made threats that if she did not cooperate, 
she would be buried behind the police station.
    She was released on March 2nd, was not formally charged 
before this past Tuesday, and now is being charged with the 
specious charge of terrorism. Could any of you give any 
insights as to her dilemma and whether or not the human rights 
community is raising her case, as well as the other cases, with 
the kind of robust focus that it requires?
    Mr. Gershman. Let me just say, Mr. Smith, that I believe 
that the judge reversed her decision not just because of the 
intervention by the Prime Minister; I am told that even the 
President was forced to intervene with the judge because of the 
international outcry over this and the realization of the 
consequences that this would have. It became a major issue.
    Obviously, these things have to continue to be watched 
because it is sort of remarkable that the people being tried 
are the ones who are the victims. This is a continuing outrage, 
of course, but, at least, right now, they are on bail, and it 
is because there has been an international outcry.
    Mr. Smith of New Jersey. Let me, then, ask a question with 
regard to human trafficking.
    The State Department has placed Zimbabwe as a Tier 2 Watch 
List, which is right below, or right next to, Tier 3, 
``egregious violator,'' and they make the point, in the 
narrative, that there has been an upsurge in exploitation. We 
know that when there is a crisis, particularly a war or an 
unsettled political situation, traffickers really exploit the 
situation.
    The number of victims, according to the State Department, 
has significantly increased, and when you talk about 
immigration flows or refugee flows approximating 3-4 million, 
that situation is rife with peril for women, especially, but 
for all who could be victims of trafficking.
    Is the unity government taking any action that you have 
gleaned to combat human trafficking? Would any of you like to 
touch on that? Ms. Lee?
    Ms. Lee. Sure. Thank you. I think it is important to note 
that, from the perspective of many in the unity government, one 
of the things that will really quell trafficking is economic 
assistance.
    I mean, the truth of the matter is, we know that 
trafficking is a problem. Trafficking certainly happens all 
over the planet by force. People are certainly kidnapped, but 
many times people are coerced, and, in the case of Zimbabwe, 
what we are seeing is an inability for people to find 
sustenance, for people to be able to get what they need, and 
for people, frankly, to take care of their children and young 
girls. What we see, of course, is people are lured into 
situations where they are trafficked.
    I think it is going to be very important that we look at 
the trafficking situation in Zimbabwe from a holistic approach 
and understand that the economy is very much entwined in what 
is happening. So as we provide economic assistance, as we 
ensure that the government can actually do its job in providing 
what its people need, those situations will begin to take care 
of themselves.
    Now, certainly, it is a major issue, and it is not just 
simply dealing with the economy, but certainly that is 
something we need to look at.
    Mr. Payne. Mr. Craner?
    Mr. Craner. I think I referred, in my testimony, to the 
need to focus our assistance to exactly those kinds of groups, 
to the antitrafficking groups. Again, people involved in that 
movement, if they are going to stay in it, need to understand 
that things are going to get better under this unity 
government, and if they do not see that, just as most people 
will give up if they do not see humanitarian assistance, then 
they, too, will also give up.
    Mr. Smith of New Jersey. Anyone else? Ms. Lee, I would say, 
obviously, poverty is a root cause, but a government does have 
an affirmative obligation that, if it takes it, can mitigate, 
although maybe not resolve and stop the above. There are rich 
countries where trafficking is as bad as it is in impoverished 
countries.
    So I take your point, we need to attack that root cause, 
but we need a mobilization; otherwise, more women and children 
will be sold into slavery.
    Let me ask, real quick, Mr. Gershman, you mentioned the 
Mass-polling; the Public Opinion Institute's very encouraging 
results with regard to the assessment of the people of Zimbabwe 
looking forward. Seventy percent of the respondents described 
the country's economic condition as better than the previous 
year. How was that poll done?
    Because we are running out of time with a vote that is 
pending, what happens, and I would ask all of our panelists, if 
the MDC, in the next week or so, or at any time, takes its 
leave of the unity government? What happens? It seems to me 
that that is a prescription for a catastrophic situation.
    Mr. Gershman. The poll was conducted by the Mass Public 
Opinion Institute, which works with the Afro Barometer, and it 
was done scientifically. I asked the question, did they poll in 
the rural areas, which are the hardest to reach--I think the 
MDC is stronger in the urban areas--and, indeed, they did poll 
in the rural areas. I think 65 percent of the people that they 
polled were in the rural areas.
    It seems like it was a very reliable and scientifically 
done poll. They are now still reviewing the results. It will 
formally be released shortly. The group is a grantee of ours. 
We are in touch with them, and we have been free to release 
these statistics that I have already, but I think it is a very 
reliable poll, and it shows that there is a change that has 
taken place.
    Obviously, it has to do with the dollarization of the 
economy and the control of inflation, and people are beginning 
to get some resources, and their lives are beginning to 
improve, but that means expectations are beginning to be 
raised, and those expectations have to be met.
    That is another reason why I think that you and Congressman 
Payne are on the right track in trying to figure out a way to 
reengage there.
    Ms. Watson [presiding]. Mr. Boozman, do you have a 
question?
    Mr. Smith of New Jersey. If I could, if the others would 
like to respond.
    Ms. Watson. Just a minute. We have about 8 minutes left on 
the vote, and the chair plans to run down and come back.
    So let me get to Mr. Boozman, and then the rest of you can 
comment on Mr. Smith's question after he raises his, and I have 
a question I will leave with you. The chair should be back in 
time, and then I will come back.
    Mr. Boozman. Thank you, Madam Chairlady. Some have 
suggested that Mugabe now is most concerned with the perception 
of his legacy and that he would have stepped aside long ago if 
not for the pressure of the ZANU-PF hardliners and military 
generals that are concerned about losing patronage, losing 
their ability to be in power.
    What is the likelihood of Mugabe stepping down, at this 
point, and, if so, if he were to vacate the presidency, who 
would be his most likely successor?
    Mr. Craner. Let me take a shot at this one. I think it is 
up for a lot of guesses who would be his successor within the 
ZANU-PF.
    We have come to believe that there was a point at which he 
actually did wish to cut a deal with MDC, but he was told by 
his security--he was essentially being guaranteed immunity--he 
was told by his security forces that they would not go along 
with this because they were not being guaranteed any kind of 
immunity, and, in fact, they threatened him with violence.
    So this issue of transitional justice, I think, is going to 
be very, very important and very, very delicate, and that is 
going to be a judgment for the people of Zimbabwe to make.
    Mr. Boozman. Do you all have any? Ms. Lee?
    Ms. Lee. Frankly, I would agree with that statement, and I 
would just add to that that I think it is important to note 
that, so often, when we have talked about the situation in 
Zimbabwe, in the United States, we refer to Mr. Mugabe as being 
really the only purveyor of human rights violations, and, 
simply, we have found that not to be the case, that, clearly, 
he is a part of a very, very intense network of people that 
have a lot on the line when it comes to this unity government 
and giving up power.
    So we just need to be clear that we are dealing with not 
just one person, not just one tyrant or one dictator; we are 
dealing with a network of people who feel that they have too 
much to lose in order to let this unity government succeed.
    Mr. Boozman. The farm troubles, the land problems; I think 
one could argue that that is a major cause of perhaps the 
collapse of the economy, and then also many of the Black 
Zimbabwean farmers working on the commercial farms being forced 
off and being in poverty. How should we deal with the land 
issue?
    This is kind of where the rubber meets the road. Any ideas?
    [No response.]
    Mr. Boozman. Okay. Thank you. I yield back, Madam Chair.
    Ms. Watson. I would like to follow up on that particular 
question. I know that Mugabe has claimed to want to take back 
the land that was originally there and taken over by the 
English. In doing so, in taking the land back from the 1,000 or 
so White agribusiness people, it cut off the funds that came in 
from Great Britain. Therefore, there has been a collapse in the 
economy, people are losing jobs, and so on.
    There is a point at which you can discuss what is fair. Can 
any of you comment on what you think would be fair, how we 
resolve the problem of taking of the lands without 
compensation? Where do we reach that middle point where we can 
have fairness as a guide to solving this? Would you like to 
take a swat at that one, Mr. Gershman?
    Mr. Gershman. Well, in the most recent International Crisis 
Group report, they did address this issue, and they called for 
the establishment of a land commission with a clear mandate and 
a strong technical basis, and it would be representative of a 
large cross-section of the stakeholders, and they urged that a 
comprehensive, transparent, and nonpartisan land inventory be 
conducted to establish accountability and to eliminate 
multiple-ownership claims and that there be international 
funding to help, obviously, support a land-reform program.
    So this is going to be one of the major challenges that 
they are going to have to face, and they are going to have to 
establish, as with other things like the constitution and the 
electoral commission, balanced public bodies that are broadly 
representative and that have some credibility and legitimacy 
that can begin to establish approaches to these issues that are 
consensual. It is very difficult, but that is the challenge 
before them on many issues.
    Ms. Watson. At 85 years old, do you think Mugabe is in the 
right frame of mind? My observation of his behavior when we 
were in that area, I guess, the year before last, at the end of 
the year, I had a group, and we were at Victoria Falls, and I 
was going to take my group over in Zimbabwe. I got a call from 
the State Department, and they said, ``Do not go. We do not 
want you to happen into any camera shots that might show 
support for Mugabe.''
    I did not go. I sent my group on, but, in watching him on 
TV, he seemed to be really adamant in the fact that he was 
going to take that land that was theirs, and so, at 85 and 
celebrating his birthday, do you think there would be a glimmer 
of hope, or will it take really an inclusive government to, at 
least, make strides? Would anybody like to comment on that?
    Mr. Mabenge. Thank you very much. I think some and many 
believe that the Global Political Agreement is the only route 
to Mugabe's exit. Some would want to call it a ``safe exit,'' 
and this is why many of us are saying this transitional route 
must be managed to its logical conclusion, and part of the 
question I am answering here also is a previous question on 
what would happen if the GPA collapses?
    If it collapses, it is quite clear, no one really knows 
what would happen, but on the balance of probability, the 
country would slide into anarchy. This is the very reason why 
many people believe it is very important for Mr. Mugabe's exit 
through the Global Political Agreement, and the transitional 
arrangement must be managed.
    However, I think it is important also to understand that 
what may keep him on are the securocrats and, of course, the 
internal fissures in his own party, most of which we may not 
have control over.
    Mr. Payne. Thank you very much. Congresswoman Watson is 
going to have to make the vote. Fortunately, we were able to 
keep it rolling. I just have several questions left, and if any 
of the others return, we can certainly hear from them on a 
second round, maybe Mr. Smith. It looks like he will be back.
    The MDC is responsible primarily, from what I understand, 
for the economics of the country, more or less, and if any of 
you may have your view on how the finance minister, Mr. Biti, 
is going to be able--in other words, it is almost like they are 
given the portfolio to fail since that is the weakest part.
    It is not uncommon, though, that the stronger hand would 
keep the security force and the military. It is not right, but 
that is generally what happens in countries when there is a 
transition. That is generally kept close to the leadership.
    So maybe each of you could comment on what you see as the 
possibility of the country being able to continue to survive 
and how the financial portfolio of MDC, which, of course, 
people might point to in an upcoming election, how do you see 
them being able to kind of skirt through that?
    Mr. Gershman. Well, as you know, Finance Minister Biti met 
with the World Bank and met with others to try to really urge 
economic assistance at this point, and I think that is the 
direction you are moving in, if it can be done in the right 
way.
    We were visited, last August, by Nelson Chamisa, who was in 
the country and came by, and he felt he was for the agreement. 
In other words, there was a real issue of division within the 
opposition over whether or not to negotiate this agreement, but 
he was for it, and he felt that time was on their side, and I 
think that is the critical thing.
    There is a process that is unfolding right now, an 18-month 
process on the constitution then leading to elections. Some 6 
to 8 months after the elections--I think they will be at the 
beginning of 2011--if people can see, as they are already 
seeing, visible progress in their lives--it cannot get any 
worse than the tens of millions of percentage points of 
inflation that was there before, an economy in total collapse 
and the diseases that were spreading in the country--it was 
hard to get worse, and they are seeing hope right now.
    If that can continue, and at the same time, through the 
constitutional process, establish an election commission that 
is really nonpartisan and can really revise the voter rolls and 
really have a fair and internationally observed election, which 
is possible, I believe, and if, during that time, you can also 
deal with these issues of the hardliners and how to retire some 
of the military people from politics, you have a chance for an 
election, and I think that could be a breakthrough. I really 
think that could be a breakthrough. So we have to see this as a 
2-year process which is beginning to unfold right now.
    Mr. Payne. Would anyone else like to comment?
    Mr. Craner. I keep coming back to this idea that if the MDC 
is part of the government, and things improve, the MDC will get 
credit. Clearly, people saw the country go into an abyss when 
ZANU-PF was running it, and I really think that needs to guide 
our thinking and our concerns on this.
    So I would say that while Tendai Biti starts to get the 
economy back on track, which, I think, is a massive job, we 
need to be looking at how we can be helping ordinary people in 
Zimbabwe so they see signs of improvement from a government 
that includes the MDC.
    Mr. Payne. Yes, Ms. Lee?
    Ms. Lee. Finance Minister Biti, as well as many civil 
society organizations in Zimbabwe, have been calling for what I 
refer to in my testimony as the ``Multi-Donor Trust Fund,'' and 
I think that this is very important and that the finance 
minister was clear that this is key to his success.
    I think one of the most important things we need to look at 
in this is the purpose of this fund is really to keep the funds 
out of the hands of those who we know are corrupt. They have 
gone through pains to ensure that the World Bank, the IMF, each 
and every multilateral donor entity, is involved and has 
control over the funds, and also, at the same time, it provides 
relief. It provides relief, in terms of humanitarian 
assistance; it provides relief to civil society organizations 
working on the ground to provide this assistance.
    So I think that, in terms of how he seems to view his 
success, it is really caught up in this Multi-Donor Trust Fund.
    Mr. Mabenge. On the ground, the USD $100 allowance that has 
been given to civil servants makes a huge difference to married 
people who could not afford anything, and they attribute this 
to the efforts of the Ministry of Finance and Economic 
Development, and, of course, the coming in of the Prime 
Minister within the inclusive government.
    If this $100 is not improved into a real salary, we run the 
risk of agitation within the rank and file civil servants. If 
you go and ask an ordinary soldier if they feel relief, this, 
then, brings me to the point that the unfortunate part is that 
if we are going to go there, with the IMF and the World Bank 
groups, Zimbabwe is in arrears of about $1.5 billion in unpaid 
interest to multilateral and bilateral creditors, and there is 
no possible that these arrears are repayable in the foreseeable 
future, at least before we have elections, which is why it is 
very important for the Ministry of Finance to begin to 
negotiate a reschedule of debt repayments so that they can, at 
least, continue to have the momentum that they have built go on 
to the logical conclusion of democratization.
    So it is my submission here that it would be very important 
for the U.S. Government and other institutions to consider 
moving a bit away from giving new loans toward financing of 
arrears rather than toward financing of things that will make 
people see a real difference in their lives.
    Mr. Payne. The whole question of debt was something that 
President Johnson Sirleaf from Liberia recently was able to 
retire 50 percent of her debt through different mechanisms and 
actually at the cost of three cents on the dollar, which I do 
not even think Liberia paid that, but donors some way, and she 
was able to reduce the US $4.7 billion to about two-point-
something.
    So I do think that, in my opinion, once there can be a 
government of reconciliation and people moving forward, the 
question of external debt, I think, that donor countries and 
international institutions will probably attempt to work toward 
reducing that debt, in many instances, which would almost be 
impossible to pay anyway.
    Just a question on the split of the MDC, and perhaps, Mr. 
Mabenge, you might be best equipped, and others, though, could 
chime in. I think that, in 2005, MDC split into two parts, and 
we tend to find that once an organization splits, it is 
weakened; if they are united, they are stronger. How do you see 
this split and whether MDC will work closer together, both 
factions?
    Mr. Mabenge. Thank you very much, Mr. Chairman. In fact, 
the events of 12 October 2005 were very unfortunate. Some would 
argue that if we did not have these events, probably we would 
not be talking about a transitional government. We would be 
talking about a new government under the leadership of the MDC.
    However, I think what has happened over the past is that 
the two MDC formations have entered into a cooperative 
agreement, and they call it a ``Parliamentary Cooperation 
Agreement.'' That may not have played out quite well during the 
election of the speakership of the House of Assembly, but, in 
terms of critical matters, we see that the MDC, the former 
opposition, voting quite together.
    It is, again, unfortunate also, however, that the kind of 
Parliament that we are going to have within the transitional 
period is not going to be a very robust Parliament, as it is 
going to be subjected to provisions of the Global Political 
Agreement.
    Our hope and wish, however, is that, as we move toward the 
next election, the weaker part of the MDC would realize the 
importance of rallying their support toward the main MDC 
formation. This will, of course, depend on how they view their 
partner, or how they view the other MDC, which we do not have 
control over, but this is the hope of all Zimbabweans, that the 
opposition, or the former opposition and the smaller parties, 
will come together to deliver the final blow to what we have 
witnessed over the years. Thank you.
    Mr. Payne. Thank you. In regard to the feeling on the part 
of some that hardliners, we do not know because we are not 
close to the Mugabe regime, but there are rumors that have some 
of the hardliners who insist that Mr. Mugabe remain in office 
because they are afraid that there may be prosecution if there 
is a real turnover in the government, and there is always the 
argument about people being held accountable for, you know, 
past atrocities, the atrocities in the eighties when many 
people were killed, what has happened that led up to even the 
current situation.
    It is always a pretty tough call, what do you do? We saw 
where the LRA was even in the process of getting, you know, if 
they had gotten along with the ICC, that all charges would be 
dropped on Kony, which was something that I could never see, 
but that kind of agreement had come up with the Government of 
Uganda, although Kony has decided not to break off the 
negotiations.
    Like I said, that was something that I had a hard time--of 
course, I do not live in Northern Uganda either, but I had a 
hard time coming to grips with how are you going to just simply 
allow Kony, even if his persons would be allowed to 
reintegrate, you know, but he, himself.
    So I say all that to say that, in South Africa, you had the 
truth and reconciliation, which was extremely successful. Of 
course, I think South Africa is pretty unique, you know. There 
are not too many countries that have a Nelson Mandela, you 
know, or a Bishop Desmond Tutu. You could not have a better 
one-two team.
    So South Africa is unique, and I do not know if you could 
just take the South African model and say it could work 
anywhere.
    How do you see this playing out with perhaps a discussion 
of what happens if we have true democracy, and charges are 
brought up against the some of the military people and police 
people? Should an agreement be made to maybe let Mr. Mugabe go 
to Southeast Asia or something?
    Does anybody have any idea, because I am sure that this is 
a discussion that is going on with ZANU-PF people? It is only 
exploration. We do not know that is for sure, but what are your 
sentiments on this whole thing, because it is going to be key 
once we try to come up with a final solution?
    Mr. Craner. Mr. Chairman, having seen different examples of 
this, I do not think that we are capable of prescribing a 
solution for a country, any country.
    I think what is important is that there have been enough 
examples of this, in Latin America, the example you referred 
to; in South Africa. We have got Central European countries 
going through this issue of illustration.
    There are enough examples to be able to bring people from 
those countries to be able to show all of the sides in Zimbabwe 
examples of how to deal with this, but, clearly, it is going to 
have to be dealt with as part of a settlement because I do not 
think there would be a settlement without this being addressed.
    Mr. Gershman. Mr. Chairman, as you go forward with a 
process like that, I think they will have to work out where 
they draw the lines. I do not think there is going to be 
impunity for people who really were engaged in terrible crimes 
against humanity. That is hard to believe, and I do not think 
there should be in those kinds of situations, but, you know, 
the South African Commission was called the ``Truth and 
Reconciliation Commission,'' not a ``Punishment and 
Reconciliation Commission,'' not a ``Justice and Reconciliation 
Commission.''
    Now, this is the fundamental tension. In a way, there is a 
certain tension between the democracy community and the human 
rights community on an issue of this kind--it is not just 
within the country--because people want to see a transition 
succeed, but, at the same time, you have human rights 
accountability, as we have all been talking about. What is 
going to have to influence U.S. policy in the period ahead and 
everybody's behavior are the trade-offs in a situation like 
this.
    A power-sharing agreement inherently involves trade-offs of 
all kinds, and the bottom line, though, is, can it move forward 
to begin to offer a new day for the people of Zimbabwe? I think 
if it shows that prospect, I think the people who really want 
to see everyone pay the price for crimes that were committed, 
will see that maybe it is better to put that person off to 
pasture somewhere, get them out of the way, so that the process 
can continue.
    It is very, very dangerous when you have people who feel 
that they are going to suffer from all of this. They are going 
to, no holds barred, do whatever they can to bring the whole 
process down.
    So it is very, very important to work to move this thing 
forward. Obviously, this is a decision they have to make 
themselves, but it is an area where I think there can be 
international support and cooperation.
    Mr. Mabenge. Mr. Chairman, our communities have been 
severely traumatized, particularly between March and probably 
September, with the signing of the Global Political Agreement, 
and what these people are looking for is a formal process that 
heals them.
    They have lost confidence in political processes, 
particularly elections, and I think what is beginning to 
happen, what we have had that is beginning to happen, is the 
process might have taken too long such that communities are 
beginning to deal with it themselves. We have had recorded case 
of those that were beaten up and had their properties taken 
during this period beginning to hit back and demanding their 
properties back.
    So to say that the nation will wait any longer for justice 
to be seen to be done, I think, would be almost disastrous. So 
my submission here is, it will remain very critical to have a 
carefully thought-out, transitional-justice process that is 
going to deal with these issues.
    I am not so sure how far back it will go, but these issues 
have to be dealt with in order to instill confidence in 
communities, particularly on political processes and elections, 
if we all understand that the logical conclusion of this Global 
Political Agreement is a free and fair election where no one 
will be subjected to torture or beaten up or to submit.
    So I think, within this framework, this is an urgent matter 
that needs to be dealt with, and it has to be dealt with quite 
carefully. Thank you.
    Ms. Lee. And a part of this, of course, has to be the 
rehabilitation of the security forces of the police, something 
that we have seen done in countries in Africa sometimes not so 
well, but to ensure that we, obviously, cannot throw these 
people away. They are a part of the society, and they also have 
been victimized themselves through, frankly, some choices that 
they have made, but also the situation, the conditions, that 
they find themselves in.
    So it will be very important that SADC, but also the U.S. 
Government, really supports rule-of-law programs and 
rehabilitation programs at that juncture.
    Mr. Payne. And then we can see if Representative Woolsey 
would like to ask any questions.
    Something that has not come up, but, as we all know, land, 
as I did mention briefly in my opening remarks, has been an 
issue, and, as you may recall, Mr. Mugabe raised the land issue 
when he found that he was losing popularity and needed a good 
issue to try to use as a political issue.
    As you know, the Lancaster House Agreement said that there 
would be stipends by Great Britain, primarily, but the United 
States, partly said that we would help also, in, as we know, 
was supposed to be a willing seller/willing buyer.
    Of course, the land was then supposed to go to the war 
veterans. Some stipend was given to the government. The Mugabe 
government allegedly used the money to purchase some land, but 
the land did not go to veterans, allegedly; it went to several 
of his membership in the family, allegedly; to some political 
supporters, and it was not the intent for the Lancaster House 
Agreement that the land would go to political supporters and 
cronies and family, thereby giving the excuse for Great Britain 
to say, ``You did not do it right. Therefore, we are cutting it 
off.''
    I think they let him perhaps give him rope, so he hung 
himself on the land issue so they could justify not going 
through with it, which, I am sure, they did not want to go 
through in the first place.
    Where do we stand now on that issue, and if anyone has any 
suggestions, and what is the current status of the land that 
was taken in the last 5 or 6 years? We will ask anyone on the 
panel, and that will be my last question. We will then turn to 
the other persons who have not asked any questions.
    Mr. Gershman. Actually, Mr. Chairman, while you were 
voting, the issue did come up, and I just pointed out that the 
International Crisis Group and others have called for the 
establishment of a land commission which can do an inventory of 
all of the issues and the competing claims. As you know, this 
is a critical issue in many countries in Africa, Kenya among 
them, and they need a fair process here, as in other areas, to 
try to resolve these competing claims.
    Mr. Craner. I will just say two things.
    Number one, as Carl noted, this is an issue that has come 
up in other countries, but it is not that unlike the property 
issues that come up in many other countries, and some of them, 
I am very familiar with. Nicaragua is still dealing with this 
20 years after they began looking at the problem.
    So, again, I think the examples of other countries can be 
useful to Zimbabwe.
    I would also say that we need to understand that, as well 
as justice on this issue, there needs to be a consideration of 
how the land is used and how it is contributing to the economy 
of Zimbabwe, and that needs to be thought through in deciding 
the allocation of this land.
    Mr. Payne. Thank you very much. We will now hear from 
Representative Woolsey from California.
    Ms. Woolsey. Thank you, Mr. Chairman. I am sorry I missed 
the witnesses. I am going to ask a question that I hope is not 
repetitive. I just do not know, but it reflects something I am 
very concerned about.
    With President Mugabe's fear of a free press, which is 
legendary, and it, actually, I believe, can only be compared to 
the worst regimes in our world's history, he believes he can 
control the story and that, if he can do that, he can cling to 
power indefinitely.
    What I want to know, there is a story, and it is the story 
of maternal and infant mortality that is very difficult to 
cover up, I would think, domestically, in Zimbabwe. What are 
the real statistics, if you know, and are they worsening, in 
light of having crimes against humanity, certainly, the 
youngest, the vulnerable mothers are going to be the first to 
be affected?
    But is there a difference in reporting domestically and 
through the foreign press what are the statistics, and is this 
something that can stand up and be used as an example of how 
much is going wrong, or if there are improvements, because I 
did not hear your testimony?
    Ms. Lee. Ms. Woolsey, I apologize because I do not have the 
statistics with me, so I will just have to speak kind of 
anecdotally about it.
    It is worsening, and it has been on the decline for some 
time, and, at TransAfrica, many of our civil society partners, 
many of the women's groups do report that it is the youngest 
mothers that are experiencing just massive problems not only 
during pregnancy but then after childbirth, and then, of 
course, we have got an infant mortality rate that is also 
skyrocketing that, you are right, is not being reported 
appropriately.
    Certainly, anecdotally, one of the problems we see is 
hospital beds and the ability for people to get to hospitals, 
and, when they arrive at hospitals, their ability to pay; the 
ability for staff to deal with just the overwhelming--
certainly, we have torture victims going to hospitals, we have 
people dying of cholera going to hospitals, and we then have 
these mothers also sometimes walking a very long distance to 
get to the hospital.
    So, certainly, with the increase in the poverty, with the 
increase in the lack of healthcare, water, and just sustainable 
infrastructure, we are certainly seeing the most vulnerable, as 
you said, in our population being affected.
    Mr. Gershman. Ms. Woolsey, I would like to send to your 
office an article that the NED published in its Journal of 
Democracy, about 8 years ago, about this issue of infant 
mortality.
    One of the interesting things, and there is actually some 
research on this, is that governments in the developing world, 
which, even if they are poor, that have been able to establish 
a rule of law and democracy have lower infant mortality rates, 
and the infant mortality rate has actually been lowered through 
a transition, than governments which are dictatorial.
    The reason should be obvious. It is one of the arguments we 
make about the instrumental purposes of democracy, which is 
that a government that is accountable to the people is more 
likely to want to address the needs of the people and to 
address healthcare needs.
    So there is some research on this. It is actually rather 
interesting. Regarding the statistics, obviously, in a country 
like Zimbabwe, where the state has such total domination over 
the media, you are not going to get accurate statistics on an 
issue like this, and that is one of the issues we raised in the 
testimony, that you have to free up the press.
    Ms. Woolsey. Well, then maybe, Mr. Chairman, we could put 
that article into the record, once we get it. I would like to 
receive it.
    Mr. Gershman. I will get it to you today.
    Mr. Payne. Without objection.
    Ms. Woolsey. Thank you. If we expanded our funding for 
infant mortality through international assistance, and if it 
got to Zimbabwe, would it get to the mothers and the children? 
Would it get to the right places?
    Mr. Gershman. Well, again, all of that depends on the 
issues we have been discussing this morning--if they can get a 
system of a rule of law where a government is beginning to 
address the real needs of the people and not just to hang onto 
power.
    You have had an economy of plunder. You have had a state 
based on violence until now. We are talking about a fundamental 
change in the system and how we, as Americans and working with 
others, can be helpful in that process. That is, ultimately, 
the only way to get at the problems you are talking about.
    Ms. Woolsey. Thank you, Mr. Chairman. Thank you, Witnesses.
    Mr. Payne. Thank you. As a matter of fact, I think Mr. Biti 
said, when he came, that one significant change was that you 
could wear an MDC sweatshirt in the community and not worry 
about being pounced on by the police. I mean, that is a small 
step for mankind, but maybe it is a bigger step than we think.
    As a matter of fact, I even talked to some people around 
the world in different places where they said that they never 
wore anything identified with the U.S. in the past 7 or 8 
years, but now that they wear an Obama T-shirt, you know, they 
do not have to worry about being criticized. So maybe these 
small things indicate, maybe that is a poll that we can use as 
being substantial.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Let me just preface my questions with an overall statement 
about the continent of Africa and the ripe opportunity that I 
think we have, as a subcommittee and a full committee, on the 
reengagement with Africa.
    Certainly, I do not discount the Millennium Account that 
was highlighted in the last administration. Ms. Lee, as you 
well know, your organization worked extensively on those 
issues.
    Certainly, I do not discount the continuing work that we 
have done on HIV/AIDS, but I think now we can unshackle 
ourselves, break the chains, and see the continent through 
different eyes, eyes that do not only focus on the devastation, 
the conflict, but what is the growth in the future, and for 
those of us who read history books, we will not account for our 
age to say, remembering the Zimbabwe of yesteryear, but we know 
that it was rich in productivity, we know that it had an 
excellent opportunity for agricultural growth and investment, 
and we know the extent of the people.
    I would make a statement that, as we proceed, I want to see 
more and more of the African ambassadors on the Hill engaging 
with Members of Congress, telling us who they are, their 
country, and helping us frame forward-thinking initiatives. I 
do not want the witnesses to think I am not going into what we 
are discussing today, and I do not, in any way, think that 
assessing the conditions is, in any way, looking backward. It 
is, in fact, to try and move us forward.
    But I have noticed the absence of presence. I do not know 
if the Ambassador to the United States from Zimbabwe is in the 
room today or maybe persons from the Embassy, but I can say to 
you that it is time to get up and get going because we have, as 
I said, close to 1 billion people--consumers, individuals who 
need to use technology; individuals who, I believe, overall, 
love democracy; who want to be unconflicted; who want to be no 
longer the displaced persons within a state; no longer want to 
be considered Darfurians who are in camps or Chad camps or the 
conflicts in Eritrea and Ethiopia.
    Forgive me for this, but I say this because you all are 
experts.
    So I want to extend my hand, as the chairman has done 
consistently. The chairman showed himself well by confronting 
the issues in Somalia in a way that they should be confronted. 
How can we do better?
    So I am energized to want to do better, and I would like to 
see some proactive thinking around the collective body of 
States. So if anybody is listening to this comment, I hope, if 
they hear anything, the ambassadors from the continent of 
Africa need to show up and be seen, not a criticism but only an 
offer for the work that this committee can do under the 
leadership of Chairman Payne.
    Let me ask you, Ms. Lee, because you have been engaged in 
this, about this question of the restoration of peace and 
security. Is it real? Are we still seeing political oppression? 
And help me understand better the role that President Mugabe is 
playing juxtaposed against the new government. If there are 
others that want to comment on that, I welcome you.
    Ms. Lee. Thank you, Congresswoman, for the opportunity. 
Certainly, we have seen changes, and Mr. Chairman did speak of 
some of the changes that we have seen.
    We do still see political repression on the ground. We have 
spoken about what happened only yesterday, when 17 people were 
rearrested, one of whom is an HIV-positive, single mother who 
is just an amazing activist who was arrested and tortured only 
months ago, and then she was rearrested on the same charges.
    Now, one of the changes that we are seeing, frankly, is, 
even though these 17 people were rearrested, because of 
pressure from civil society groups, because of pressure from 
the Prime Minister, we did see those arrests rescinded. That is 
a change, but we still are seeing the security forces that are 
still under the control of ZANU-PF, frankly, taking advantage 
of their majority position.
    Ms. Jackson Lee. Did Mugabe then enter into the agreement 
in good faith, or are we seeing an agreement of convenience, 
and then what should be our position?
    Ms. Lee. It has been TransAfrica's position for some time 
that President Mugabe certainly is a factor. He is a player. He 
is a part of the problems, but he is not the only part of the 
problem that we need to consider.
    Months before this actually broke in the U.S. media, we had 
been talking to civil society groups that explained, Mugabe 
really is not in control, the way people describe him being in 
control. You do have this gang of ``15,'' however, who are the 
security forces, the police force, who are in control of the 
country.
    So when we think about what is going on in Zimbabwe, it is 
not just around this one person, although, certainly, he is a 
focal point and someone that does need to be considered, but he 
is not the only person.
    So did he enter it in good faith? I think that we can 
disagree on whether he did or he did not. Certainly, ZANU-PF 
knew that they were going into a position where they were not 
going to lose control of the security forces. They were handing 
over an economy to the MDC that was in tatters, and, basically, 
they know, as I stated earlier, that they can really ride this 
out for a bit, which is why it is so important that we engage, 
why it is so important that the U.S. Government really engages, 
in attempts to rebuild the economy so that those that are very 
interested in democracy, that really want transparency, can 
actually prevail on this.
    It could very well happen that this situation continues, 
the country continues to decline, and yet people at the highest 
echelons of ZANU-PF continue to, frankly, prosper.
    Ms. Jackson Lee. I do not want to see that happen, and some 
people say that Mugabe is the wedge in the door from the right, 
right wing taking over.
    Let me conclude my questions by saying this: I agree with 
the idea of a special envoy. I think it is crucial. I think 
they have been effective in the past, and, certainly, I would 
like to engage on that issue, but I would like to conclude my 
questions with a question that I would like all of you to 
answer, and, Ms. Lee, you can answer last, which is, what is 
the one fix that you would offer that we would need with 
respect to Zimbabwe? And I will start with Mr. Gershman, and it 
may be women and children, health, but one fix.
    Mr. Gershman. Well, I think the critical issue that I 
pointed to, after the release of prisoners, is the 
constitutional process that is underway now. That has to be an 
inclusive process, not just done by the political elites, but 
it has to really involve the people and civil society 
organizations.
    If I may, just in 1 minute, Madam Congresswoman, just to 
come back to your point about the African ambassadors and 
telling the story of Africa, as the chairman knows, I recently 
returned from a conference of African human rights defenders 
from 45 African countries in Kampala, heroic people, and one of 
the things I said to that conference is a story that is not 
told in this country.
    When the NED came into existence 25 years ago, there were 
almost no African democracies. There were three very small 
countries totaling 3 million people: Botswana, Mauritius, and 
Gambia. Gambia is no longer quite a democracy.
    Since the second liberation of Africa began in 1990, the 
number of African countries that are considered either liberal 
or electoral democracies, where they have basically free and 
fair elections, even if they have some other problems, is now 
just about half of the 48 sub-Saharan African countries.
    This is a remarkable story, and the basic reason for this 
is because of some fundamental change that has taken place in 
Africa in the past 20 years, and that is an explosion of civil 
society organizations, from women's organizations, human rights 
organizations, civil rights groups, trade unions, and others, 
working from the bottom up to try to pressure for democratic 
change.
    It is a story that needs to be told, it is not sufficiently 
understood, when everybody is just focusing on Somalia, Darfur, 
Ethiopia, as they should. I am not saying that they should not, 
but the success stories like--obviously, we know South Africa, 
but Ghana, Sierra Leone, Liberia, and so forth; these stories 
have to be told as well, and I commend you for your calling 
attention to this.
    Ms. Jackson Lee. Well, I thank you for expanding, and, boy, 
do I see an opportunity for the United States and its civil 
society, and I welcome that and look forward to working with 
you. It is a wonderful story that should be told.
    Doctor? I am calling you ``Doctor.'' I am sorry. Mr. 
Mabenge?
    Mr. Mabenge. Thank you very much. We realize that 
democratization works best through supply-and-demand factors. 
They are things, certainly, that Zimbabweans would have to do 
that have nothing, absolutely nothing, to do with the 
international community, and these are commitments to a truly 
reflective, constitutional-making process, a process that is 
truly inclusive, and this process, indeed, as Mr. Gershman 
said, needs to be supported.
    However, I will still maintain that there is a need to 
ensure that we continue to direct financial resources toward 
progressive elements of the inclusive government to ensure that 
we have a soft landing of this transitional government into a 
real democracy. Thank you.
    Ms. Jackson Lee. Thank you. Mr. Craner?
    Mr. Craner. I would say we need to pay attention to two 
things, and one is the constitution because that is going to be 
the basis for things really changing.
    I think the other element we need to pay attention to feeds 
into your comments before, and that is regional pressure. 
Zimbabwe is not a good ad for Southern Africa. Other countries, 
like Botswana, Namibia, Mozambique, and South Africa are, and, 
to the extent with the new South African President, especially 
as a leader, pressure can continue to be brought on Zimbabwe 
because I think that is part of what is moving Mr. Mugabe.
    If I can just comment also, one of the things I always tell 
ambassadors when I meet them is, ``Please go to the Hill. Do 
not rely on your State Department desk officer to tell the 
story of your country.''
    I think it is very important what Carl was just talking 
about, to highlight the successes that are in Africa. I am on 
the board of MCC, as Mr. Payne noted, and I think it has become 
a great incentive not only for the country that is being given 
the money but for its neighbors.
    I had the opportunity to talk to the President of Zambia 
during a signing ceremony for MCC, and I asked him, ``Why are 
you taking this money that you have to meet these standards for 
when you could get free money from China?'' and he said, 
``Because this is better money for my country.'' He said, ``My 
country needs to make these changes. It needs to worry about 
girls going to school and what percentage of our children are 
being immunized and how long it takes to start a business.'' 
And he said, ``This helped me get things changed in my country, 
so that is why it is better than Chinese money.''
    So, to the extent we can help move things along in these 
countries through programs such as MCC, that will give us even 
more successes to talk about.
    Ms. Jackson Lee. What a wonderful story. I am ready to leap 
across the ocean right now. I am just moved by that.
    Ms. Lee is going to conclude. Thank you, Mr. Chairman, for 
your indulgence.
    Ms. Lee. The one fix: The economy, the economy, the 
economy. We stand before a people who have fought for democracy 
time and time and time again, and we hear stories all the time 
of people facing the most insurmountable odds, yet they still 
stand in front of soldiers, in front of tanks, yet these 
people, for their work, right now, they are becoming more 
hungry and more sick and more unable to really focus on the 
business of civil society, to focus on the business of human 
rights.
    So to the extent that we can, through the mechanisms that 
are before us that can really make a difference and keep the 
money out of the hands of those who are corrupt, we really need 
to put all of our efforts that we.
    I believe, truly, that with a people that have such a 
tradition of democracy, the constitution will be a better 
constitution if people can focus on democracy instead of 
thinking about what are they going to eat, how are they going 
to get medicine, how are they going to have their babies in a 
safe, loving environment?
    Ms. Jackson Lee. Is that getting farming back again?
    Ms. Lee. Excuse me?
    Ms. Jackson Lee. Is that getting agriculture back again?
    Ms. Lee. It is certainly getting the agriculture back 
again, but the emergency relief that the finance minister, 
Tendai Biti, has requested is that we contribute to this Multi-
Donor Trust, and that is something that TransAfrica is very 
committed to, and that would go through the IMF, the World 
Bank, the African Development Bank, and ensure that the money 
goes to where it is most needed and stays out of the hands of 
corrupt elements in the government.
    Ms. Jackson Lee. I thank the chairman. I yield back. Thank 
you.
    Mr. Payne. Thank you very much. Mr. Smith?
    Mr. Smith of New Jersey. Before we voted, and perhaps you 
all answered this, but I still would like to pose it again, and 
if you have answered it, I will look at the record, but what 
happens if the MDC bolts the unity government?
    Certainly, there has to be an encouragement, 
notwithstanding the pitfalls and the crises faced by that 
party, to stay in and make it work.
    Secondly, since August 2008, as we all know, approximately 
100,000 people contracted cholera, resulting in over 4,300 
deaths. The World Health Organization suggests that the cholera 
epidemic has dissipated. My question is, has it, and what are 
the fears of a return?
    Mr. Mabenge. Thank you very much. The Global Political 
Agreement states quite clearly that, in the event that this 
thing does not work, one of the political parties can--let me 
use the words, ``pull out,'' and trigger an election.
    If the MDC pulls out of this agreement now, it is my 
considered opinion that the consequences would be disastrous.
    If we go the election route, again, as I indicated earlier, 
communities are not yet ready for political processes that 
subject them to conditions as they were subjected to between 
March and September 2008.
    So, still, it remains quite crucial for the MDC to give 
this Global Political Agreement a minimum threshold of time to 
allow movement toward a situation where if an election is 
triggered, the communities will be able to participate freely 
and deliver democratization.
    So it remains, I still do not know what exactly would 
happen, but if the MDC does pull out, I am saying we have the 
likelihood of a possible military takeover, whether it is a 
soft takeover or an outright takeover, as we witnessed between 
March and September. So it is in the best interests of 
Zimbabweans to, at least, give time to this process and deal 
with critical matters outlined in the Global Political 
Agreement, which are our own benchmarks, as Zimbabweans, in the 
movement toward full democratization. Thank you.
    Mr. Smith of New Jersey. Cholera?
    Mr. Gershman. Obviously, no one wants to see this agreement 
fall apart. We have got to now focus on how to move forward, 
and to go back would be a disaster.
    Mr. Smith of New Jersey. Can you comment on what we could 
do to mitigate the possibility of a reemergence? On cholera, 
any thoughts on whether or not it really has dissipated and 
whether or not it might come back unless mitigating efforts are 
made?
    Ms. Lee. On cholera, we have heard the same, that it has 
been dissipating, but it is important to note that the 
infrastructure issues that led to the cholera epidemic are 
still very much there, and other diseases that have not been 
seen in Zimbabwe all that often are being seen much more often, 
other waterborne illnesses. So it is still certainly an issue, 
but, for right now, yes, we have heard the same.
    Mr. Craner. If I can just go back to the question, What if 
the MDC bolts? I would say two things.
    Number one, it is important for us to continue to work very 
intensively with the neighbors of Zimbabwe, both to see if they 
can help ensure the success of the agreement but also so that 
they are in place and ready to do what would need to be done if 
the MDC had to bolt.
    It is important that the MDC not feel that they have to put 
up with anything or accept lowest-common-denominator agreements 
simply to stay in.
    I would also say that, as far as a reaction from the people 
of Zimbabwe goes, I think that is yet another argument for them 
to see benefit through channels that do not accrue credit to 
the government from the fact that the MDC is now partly in 
control of the country. In other words, if, with the MDC in 
partial control, they see greater benefits, and if the MDC has 
to pull out, they see lesser benefits, the conclusion for the 
people is obvious.
    Mr. Payne. Well, let me thank you all. Before we conclude, 
it is encouraging that some of the surrounding governments--
South Africa and Botswana--have forwarded loans to the 
government to help it along. As a matter of fact, several years 
ago, Botswana was very concerned because they have beef markets 
in Europe and because Zimbabwe's lack of animal safety that 
animals can go across borders, and they were concerned that 
their livestock could be impacted negatively by Zimbabwe's lack 
of health concerns.
    So I think that the countries in the region certainly are 
concerned.
    I would like to mention that I plan to introduce 
legislation and will certainly include many of the excellent 
recommendations and analyses that each of you have provided 
here today. The purpose of the bill is to support democratic 
reform, economic recovery, and political stability, but, most 
importantly, to provide support for civil society and targeted 
support to help bring about real change.
    So we are going to, hopefully, be able to thread through 
the difficulty. As I mentioned before, this is a very complex 
and a very difficult situation, as we all know, but your 
testimony and your answers to the questions have been extremely 
helpful, and we certainly appreciate it, and I will conclude 
the hearing.
    Thank you, Ranking Member and the other members who finally 
did get here, and I ask for unanimous consent for members to 
have 5 days to revise and extend their remarks. Without 
objection, so ordered. The meeting is adjourned. Thank you.
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
